OFFICE OF INSPECTOR GENERAL



AUDIT OF SELECTED USAID
MISSIONS’ EFFORTS TO
MITIGATE ENVIRONMENTAL
IMPACT IN THEIR PROJECT
PORTFOLIOS
AUDIT REPORT NO. 9-000-11-002-P
JULY 21, 2011




WASHINGTON, D.C. 

Office of Inspector General

July 21, 2011

MEMORANDUM

TO: 	                AFR/AA, Senior Deputy Assistant Administrator, Sharon Cromer
                     ASIA/AA, Senior Deputy Assistant Administrator, Frank Young
                     E&E/AA, Senior Deputy Assistant Administrator, Roberta Mahoney
                     LAC/AA, Deputy Assistant Administrator, Mark Lopes
                     ME/AA, Senior Deputy Assistant Administrator, Christopher Crowley
                     OAPA/OD, Senior Deputy Assistant to the Administrator, D. Larry Sampler
                     EGAT/NRM, Agency Environmental Coordinator, James S. Hester

FROM: 	              D/AIG/A, Deputy Assistant Inspector General for Audit, Melinda Dempsey /s/

SUBJECT:	            Audit of Selected USAID Missions’ Efforts to Mitigate Environmental Impact in
                     Their Project Portfolios (Report No. 9-000-11-002-P)


This memorandum transmits the final report on the subject audit. We considered your
comments on the draft report in finalizing the report and have included the Agency
Environmental Coordinator’s consolidated response in Appendix II.

The report contains three recommendations to improve procedures to mitigate environmental
impact in the missions’ project portfolios. On the basis of information provided by management
in response to the draft report, we determined that management decisions have been reached
on all three recommendations. Determination of final action on these recommendations will be
made by the Audit Performance and Compliance Division on completion of the planned
corrective actions.

I appreciate the cooperation and courtesy extended to the staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1 



Audit Findings................................................................................................................. 3 



     Selected Missions Did Not Always Include Environmental Requirements 

     in Solicitations and Awards ......................................................................................... 3 


     Selected Missions Did Not Always Properly Monitor Environmental Compliance 

     Components During Project Implementation .............................................................. 5 


     Selected Missions Did Not Always Formally Designate Officers for Overseeing 

     Implementation of 22 CFR 216 ................................................................................... 6 


Evaluation of Management Comments......................................................................... 8 



Appendix I – Scope and Methodology .......................................................................... 9 



Appendix II – Management Comments ....................................................................... 11 



Appendix III – Audit Reports Issued ........................................................................... 14

SUMMARY OF RESULTS

Adverse environmental effects stemming from economic development are a fundamental
concern in the developing world. As USAID-funded projects are implemented across the
globe, it is imperative that the environmental impacts of those projects be carefully
considered and mitigated to the extent appropriate.

To provide adequate environmental oversight and ensure that environmental
considerations are integrated into the decision-making process for all USAID-funded
projects, programs, and activities, USAID implements Title 22 of the Code of Federal
Regulations, Part 216, “Environmental Procedures” (22 CFR 216). In addition, USAID
implements Agency guidance—Automated Directives System (ADS) Chapter 204,
“Environmental Procedures”—which provides policy and required procedures on how to
apply 22 CFR 216. If properly implemented throughout the project cycle, 22 CFR 216
will result in environmentally sound activities and the promotion of environmental policies
consistent with USAID’s development mandate.

The Office of Inspector General conducted four audits—at USAID/Democratic Republic
of Congo, USAID/Egypt, USAID/Kenya, and USAID/Kosovo—to determine whether
USAID is achieving its goals and objectives to mitigate environmental impact in its
project portfolios. The four audits (report titles listed in Appendix III) reviewed 39
projects, valued at approximately $459 million, that included activities with potential for
adverse environmental impact (page 9). This report summarizes the results of the four
audits conducted.

For the 39 projects reviewed, auditors determined that selected USAID missions were
generally achieving their goal to mitigate environmental impact in their project portfolios.
The audits found no indication of significant adverse impact to the environment as a result
of USAID-implemented activities. The four audits, however, found some areas where the
missions’ procedures could be strengthened by (1) including environmental compliance
requirements in solicitations and awards for contracts, grants, and cooperative
agreements; (2) properly monitoring environmental compliance components during project
implementation; and (3) formally designating officers for overseeing implementation of
environmental regulations (pages 3–7).

Auditors made recommendations to the four missions to address the issues noted
above. However, the audit team was concerned that projects at other missions
throughout the world might have the same environmental compliance issues.
Discussions with the Agency Environmental Coordinator confirmed these concerns.
Given the importance of preventing adverse environmental effects stemming from
economic development, the audit team believes that all missions should develop clear
and explicit procedures to mitigate environmental impact.

To ensure that all missions are complying with 22 CFR 216 and ADS Chapter 204, this
report recommends that the Deputy Assistant Administrator for each USAID regional
bureau1 require missions to do the following:

1
 The regional bureaus formulate, approve, direct, and implement economic assistance programs
with the field mission staff under their responsibility.


                                                                                          1
1. 	 Develop and implement procedures to include environmental requirements in awards
     for projects with environmental threshold decisions of negative determination with
     conditions and positive determinations.2 The procedures should also require, when
     possible, that environmental requirements be included in solicitations. When
     inclusion in the solicitation is not feasible, the procedures should require the inclusion
     of environmental requirements in subsequent scopes of work (page 4).

2. 	 Develop and implement procedures to properly monitor environmental compliance
     components for projects with environmental threshold decisions of negative
     determination with conditions and positive determinations (page 6).

3. 	 Develop and implement procedures to formally designate officers for overseeing the
     planning and implementation of the Agency’s environmental procedures (page 7).

The Deputy Assistant Administrators for all six regional bureaus or equivalents—
Afghanistan and Pakistan Affairs, Africa, Asia, Europe and Eurasia, Middle East, and
Latin America and the Caribbean—agreed with the three recommendations. Based on
our evaluation of the consolidated management response, a management decision has
been reached on all three recommendations.

The following section provides details on the three audit findings. Appendix I contains a
discussion of the audit’s scope and methodology. Our evaluation of management
comments appears on page 8, and the consolidated management response is included
in Appendix II.




2
    Definitions of the threshold decision categories appear on page 3.


                                                                                             2
AUDIT FINDINGS

The four audited USAID missions (USAID/Democratic Republic of Congo, USAID/Egypt,
USAID/Kenya, and USAID/Kosovo) were generally achieving their environmental goals.
However, the audits identified several areas where improvements are needed, detailed
below.

Specifically, the four missions did not always (1) include environmental requirements in
solicitations and awards for contracts, grants, and cooperative agreements; (2) properly
monitor environmental compliance components during project implementation; and (3)
formally designate officers for overseeing implementation of environmental regulations.

Selected Missions Did Not Always
Include Environmental Requirements
in Solicitations and Awards
The first step in USAID’s environmental assessment process is the Initial Environmental
Examination, a document that details the effects of a proposed action on the
environment, if that activity is not exempt from or excluded by Title 22 of the Code of
Federal Regulations, Part 216—Environmental Procedures (22 CFR 216). The Initial
Environmental Examination evaluates the potential of program or project activities for
environmental impact and establishes mitigation actions, including the monitoring and
evaluation required from project design through implementation.              The Initial
Environmental Examination also determines the threshold decision, which is a formal
agency assessment of whether a proposed agency action is a major action significantly
affecting the environment and whether an Environmental Assessment or Environmental
Impact Statement, more detailed environmental studies, will be required. Threshold
decisions are divided into the following categories:

•   Negative Determination Without Conditions (no impacts)
•   Negative Determination With Conditions (some risk of environmental impact)
•   Positive Determination (significant risk of environmental impact)
•   Deferral (activity is not developed enough to make a determination)

ADS Chapter 204, “Environmental Procedures” (204.3.4.a(6)), requires strategic
objective teams and operating units to incorporate factors and mitigative measures
identified in environmental evaluation documents (e.g., Initial Environmental
Examination), as appropriate, in the design and implementation instruments for
programs, projects, activities, or amendments.        The responsibilities of project
implementers regarding these environmental requirements should be determined up
front and explicitly enumerated in the solicitations and subsequent awards prior to
project implementation. Therefore, contracting officer or agreement officer must
incorporate these requirements into any contracts, grants, cooperative agreements, or
other mechanisms used to implement the activity.

Audits at three of four USAID missions (USAID/Democratic Republic of Congo,
USAID/Kenya, and USAID/Kosovo) found that officials did not always incorporate the
environmental requirements into solicitations and awards.


                                                                                           3
•	 At USAID/Democratic Republic of Congo, none of the agreements for the four
   projects audited had fully incorporated the environmental requirements outlined in
   the Initial Environmental Examination.

•	 At USAID/Kosovo, five of the nine projects reviewed had completed Initial
   Environmental Examinations prior to solicitation. Of the five projects, four did not
   incorporate the requirements outlined in the Initial Environmental Examinations into
   the solicitations.

•	 At USAID/Kenya, only three of the six projects had incorporated environmental
   requirements into their signed awards.

The above conditions occurred for different reasons. At USAID/Democratic Republic of
Congo, the agreement officer’s technical representative and the regional contracting
officer were unaware of the requirements for including the environmental language in the
agreement and contracting documents. At USAID/Kosovo, mission staff and the
regional contracting officer were confused over who was responsible for including
environmental requirements from the Initial Environmental Examination in the contract
documentation. USAID/Kenya contracting officers partially attributed the omission of
environmental requirements to the practice of using existing awards, which may not
include all relevant environmental requirements, as templates for new procurement
instruments.

By not including environmental compliance requirements in the solicitation documents,
USAID is not informing potential bidders of their responsibilities to mitigate potential
environmental impact. As a result, in instances where implementing partners are not
fulfilling environmental requirements, USAID may be unable to enforce these
requirements if they are not included in signed awards.

The Office of Inspector General made recommendations to the three missions to
address the issues noted above. In addition, this report recommends that USAID
regional bureaus take the following action to ensure that all missions include
environmental requirements in solicitations and awards.

   Recommendation 1. We recommend that the Deputy Assistant Administrator of
   each regional bureau require missions to develop and implement procedures to
   include environmental requirements in awards for projects with environmental
   threshold decisions of negative determination with conditions and positive
   determinations. The procedures should also require, when possible, that
   environmental requirements be included in solicitations. When inclusion in the
   solicitation is not feasible, the procedures should require the inclusion of
   environmental requirements in subsequent scopes of work.




                                                                                      4
Selected Missions Did Not Always
Properly Monitor Environmental
Compliance Components
During Project Implementation
The Code of Federal Regulations (22 CFR 216.3(a)(8)) requires that monitoring take into
account environmental impacts during the implementation of certain projects, programs,
and activities. ADS 204.2.c and ADS 204.3.4.b state that mission officials are
responsible for ongoing monitoring and evaluation of activities to ensure they comply
with USAID’s environmental procedures and to identify and address any new or
unforeseen consequences arising during implementation. Monitoring and evaluation
responsibilities include conducting site visits to ensure that all mitigative environmental
measures in the award are implemented throughout the life of the award.

Three of the four missions audited (USAID/Democratic Republic of Congo, USAID/Egypt,
and USAID/Kenya) did not always properly monitor environmental compliance
components during project implementation.

•	 USAID/Democratic Republic of Congo did not consistently monitor environmental
   impact or issues for all of its activities. Furthermore, the mission did not have a
   system in place for ensuring that USAID officials systematically verify environmental
   compliance during site visits.

•	 At USAID/Egypt, the activity manager and agreement officer’s technical
   representative did not perform site visits to ensure that the measures identified in the
   Initial Environmental Examination were taking place.

•	 At USAID/Kenya, contracting and agreement officer’s technical representatives did
   not look specifically at environmental issues during site visits.

The above conditions occurred for two primary reasons. The overall environmental
monitoring process and its requirements were unclear to staff and implementing
partners. The lack of management attention to the environmental monitoring process
and its requirements was another contributing factor. At USAID/Democratic Republic of
Congo, most agreement officer’s technical representatives, contracting officer’s technical
representatives, implementing partners, and subpartners were not aware of their
environment compliance responsibilities. At USAID/Egypt, management did not devote
adequate attention to monitoring environmental mitigating measures. At USAID/Kenya,
technical representatives stated that they generally did not know or remember to
observe environmental conditions during site visits.

Without sufficient monitoring, USAID and its missions will not be able to ensure that
implementing partners are complying with environmental requirements and may
overlook environmental concerns.

The Office of Inspector General made recommendations to the three missions to
address the issues above. In addition, this report recommends that USAID regional
bureaus take the following action to ensure all missions properly monitor environmental
compliance components during project implementation.



                                                                                         5
   Recommendation 2. We recommend that the Deputy Assistant Administrator of
   each regional bureau require missions to develop and implement procedures to
   properly monitor environmental compliance components for projects with
   environmental threshold decisions of negative determination with conditions and
   positive determinations.


Selected Missions Did Not Always
Formally Designate Officers for
Overseeing Implementation of
22 CFR 216

ADS 204.2 describes the responsibilities of USAID’s environmental advisors at the
bureau, regional, and mission levels. The Agency Environmental Coordinator is
responsible for overseeing the effective implementation of 22 CFR 216 throughout the
Agency. At the bureau level, the bureau environmental officer is responsible for
overseeing the effective implementation of 22 CFR 216 throughout all operating units in
their bureau. Regional environmental advisors and mission environmental officers are
responsible for advising teams, activity managers, contracting and agreement officer’s
technical representatives, and operating unit heads on how best to comply with 22 CFR
216 requirements.

Two of the four missions audited (USAID/Egypt, and USAID/Kosovo) had issues related
to the designation of officers responsible for overseeing the implementation of 22 CFR
216.

•	 USAID/Egypt had not formally designated a mission environmental officer.

•	 USAID/Kosovo and other missions in Europe and Eurasia region were without
   support from a full-time regional environmental advisor or a full-time bureau
   environmental officer.

The above conditions had several causes. USAID/Egypt attributed its delay in
designating a mission environmental officer to factors including the lack of environmental
project funding and a need to define the new regional environmental advisor’s role in the
mission. USAID/Kosovo lacked access to a full-time regional environmental officer and
a full-time bureau environmental officer because of staffing issues at the bureau level.
At the time of the audit in September 2009, the acting environmental officer in the
Bureau for Europe and Eurasia had been serving as both the regional environmental
advisor and the bureau environmental officer since 2005.

The improper designation of officers responsible for environmental compliance may lead
to potential risks.   Without a designation letter, USAID/Egypt’s acting mission
environmental officer does not have the proper authority to review and clear
environmental documents on the mission director’s behalf. The audit team at
USAID/Kosovo expressed concerns that the mission might continue to experience




                                                                                        6
project delays and an increased risk of adverse environmental impact because of a lack
of environmental resources and expertise3.

The Office of Inspector General made recommendations to the two missions to address
the issues noted above. In addition, this report recommends that USAID regional
bureaus take the following action to ensure that all missions formally designate officers
for overseeing the implementation of 22 CFR 216.

    Recommendation 3. We recommend that the Deputy Assistant Administrator of
    each regional bureau require missions to develop and implement procedures to
    formally designate officers for overseeing the planning and implementation of the
    Agency’s environmental procedures.




3
  In response to the draft audit report, USAID/Kosovo submitted an action memorandum to the
acting Assistant Administrator for the Bureau for Europe and Eurasia to establish a full-time,
regionally based environmental advisor to assist the mission with implementation of projects with
potential for significant environmental impact.


                                                                                               7
EVALUATION OF
MANAGEMENT COMMENTS
All six regional bureaus or equivalents (Afghanistan and Pakistan Affairs, Africa, Asia,
Europe and Eurasia, Latin America and the Caribbean, and the Middle East) agreed with
the audit recommendations. After evaluating management comments, we determined
that a management decision has been reached on all three recommendations.
Determination of final action on these recommendations will be made by the Audit
Performance and Compliance Division on completion of planned corrective actions.

The Deputy Assistant Administrators for the six regional bureaus or equivalents agreed
with the three recommendations, and directed their respective missions to comply with
and report on all three of the audit’s recommendations. All six regional bureaus or
equivalents responded with a target date of completion, with all recommendations to be
implemented by December 31, 2011.

The Agency Environmental Coordinator stated that the audit is a useful addition to
USAID’s ongoing efforts to ensure environmental compliance with 22 CFR 216 and cited
several actions already taken in support of the three audit recommendations. For
example, last year bureau environmental officers and the Agency Environmental
Coordinator conducted first-time or refresher training courses in 22 CFR 216
implementation and compliance for over 250 USAID officers— including attorneys and
specialists in contracts, health, agriculture, engineering, and program development—in
Washington and the field to improve their understanding and skills. The Agency
Environmental Coordinator stated USAID is on track to match this number this year.

The Agency Environmental Coordinator’s management comments, which constitute a
consolidated response based on his discussions with senior managers on the results of
the audit and on documentation provided by the six regional bureaus or equivalents on
actions taken to implement the audit recommendations, appear in Appendix II.




                                                                                      8
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted these audits in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audits to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objectives. We believe that the evidence obtained
provides that reasonable basis.

The audits were designed to determine whether USAID had achieved its goals and objectives to
mitigate environmental impact. This report summarizes the results of audit work conducted at
four overseas missions as follows:

•   Kosovo—from September 8 to 25, 2009.

•   Kenya—from March 9 to 26, 2010.

•   Democratic Republic of Congo—from April 12 to 30, 2010.

•   Egypt—from February 18 to May 23, 2010.

In planning and performing the four audits, we assessed USAID’s controls over its
environmental procedures. Specifically, we reviewed (1) environmental evaluation documents
including Initial Environmental Examinations; (2) solicitation and award documents; (3) project
documents such as work plans, quarterly reports, and monitoring plans; (4) management best
practices, including issuing appointment memorandums; and (5) the monitoring of and
interaction with implementing partners by contracting officer’s technical representatives and
agreement officer’s technical representatives (activity managers). We interviewed key USAID
staff, contractors, and implementing partners. We visited the sites of projects implemented by
the four country missions audited.

The audit teams reviewed 39 projects to answer the audit objective. The total amount awarded
for the projects reviewed was approximately $459 million.

Methodology
To answer the audit objective, the audit teams met with key USAID environmental personnel,
mission staff, agreement and contracting officers’ technical representatives, and implementing
partners. The audit teams then judgmentally selected activities from the portfolios to narrow the
focus of the audit. For the Democratic Republic of Congo audit, the team selected 4 projects;
for the Egypt audit, the team reviewed 20 projects under five selected assistance agreements;
for the Kenya audit, the team selected 6 projects; and for the Kosovo audit, the team selected 9
projects. These projects represent the missions’ diverse project portfolios and capture
consideration of environmental concerns in a variety of project areas, including, water,
agriculture, health, education, private enterprise, energy, civil society, good governance, and
economic growth.




                                                                                               9
                                                                                      Appendix I


To identify criteria for the audit, we reviewed applicable laws; ADS Chapter 204; best practices;
and guidelines pertaining to environmental regulations, specifically 22 CFR 216. Additionally,
we reviewed documentation provided by the missions audited, such as contract and agreement
documents, environmental documentation, and work plans, to determine the extent to which the
missions were implementing environmental procedures and environmental best practices.
Lastly, we reviewed prior USAID Office of Inspector General reports on environmental
regulations and procedures.

We conducted interviews with implementing partners and made multiple site visits to confirm
that the four audited missions’ projects had not had significant impact on the environment.




                                                                                              10
                                                                                   Appendix II



MANAGEMENT COMMENTS 

MEMORANDUM

To:           Melinda Dempsey, Deputy Assistant Inspector General for Audit

Cc:           Sharon Cromer, Senior Deputy Assistant Administrator for Africa
              Frank Young, Senior Deputy Assistant Administrator for Asia
              Roberta Mahoney, Senior Deputy Assistant Administrator for Europe and Eurasia
              Mark Lopes, Deputy Assistant Administrator for Latin America and the Caribbean
              Christopher Crowley, Senior Deputy Assistant Administrator for the Middle East
              D. Larry Sampler, Senior Deputy Assistant to the Administrator/Senior Deputy
              Director for Afghanistan and Pakistan
              Lisa Gomer, General Counsel

From:         James Hester, Agency Environmental Coordinator       /S/

Subject:      Audit Report No. 9-000-11-00X-P
              Draft Audit of Selected USAID Missions’ Efforts To Mitigate Environmental
              Impact In Their Project Portfolios, May XX, 2011

Date:         May 25, 2011


Summary:       In response to your memorandum transmitting the subject draft audit entitled
Selected USAID Missions’ Efforts To Mitigate Environmental Impact In Their Project Portfolios
to senior managers in the six regional bureaus and myself, I worked with their senior staff to
explain the results of the subject audit. All six bureau managers indicated agreement with the
three recommendations, and have taken affirmative steps to direct the heads of their missions
to undertake necessary actions to implement them within near-term deadlines. Attached to this
memorandum are copies documents that these senior managers have promulgated to make
this happen.

When missions complete these actions and report to these senior managers, they have been
asked to pass this information to the AEC who will in turn provide it to the D/AIG/A.


Background: Audit Report No. 9-000-11-00X-P, Draft Audit of Selected USAID Missions’
Efforts To Mitigate Environmental Impact In Their Project Portfolios, May XX, 2011, reviewed
compliance with USAID’s environmental impact assessment procedures as laid out in Title 22 of
the Code of Federal Regulations, Part 216. From sampling four USAID missions, no indication
of significant adverse impact to the environment as a result of USAID-implemented activities
was found, but three recommendations were identified to improve mission procedures to ensure
these missions continue to achieve their goal to mitigate environmental impact in their project
portfolios. These are:
        (1) including environmental compliance requirements in solicitations and awards for
            procurement instruments
        (2) properly m	 onitoring environmental compliance components during project
            implementation;


                                                                                            11
                                                                                      Appendix II


       (3) and formally designating officers for overseeing implementation of Title 22 of the
           Code of Federal Regulations, Part 216—Environmental Procedures (22 CFR 216)

The Deputy Assistant Inspector General for Audit provided a copy of this draft audit to the AEC
and senior managers (AA or DAA) at each of the six Regional Bureaus or equivalents:
Afghanistan and Pakistan Affairs, Africa, Asia, Europe and Eurasia, Middle East, and Latin
American and the Caribbean. This included a request that each regional bureau senior
manager ask their mission directors to take steps to address the three recommendations, and
that they report to the AEC who will consolidate the responses and report to the D/AIG/A. This
memorandum and attachments is the first AEC report and documents the agreement from all six
regional bureaus to direct their missions to comply with and report back on all three of the
audit’s recommendations within near-term deadlines of between 60 and 90 days (depending on
the complexities of each region). As each region’s senior manager reports to the AEC on the
final results, the AEC will compile this information and provide it to the D/AIG/A.

We have a strong instrument in 22 CFR 216 to ensure environmental compliance which leads to
optimizing results from all USAID investments including saving lives and achieving lasting
economic and social development in our partner countries. Continuous improvement of the way
we apply it is my constant goal and this audit is a useful addition to our ongoing efforts. For
example:
    •	 In support of all three audit recommendations, last year our Bureau Environmental
       Officers and I conducted first time or refresher training courses in 22 CFR 216
       implementation and compliance for over 250 USAID officers from all backstops
       (contracts, attorneys, health, agriculture, engineering, program development, etc.) in
       Washington and the field to improve their understanding and skills. We are on a pace to
       match this number this year.
    •	 In support of audit recommendations (1) and (2), we opened a new public website where
       all 22 CFR 216 determinations are now maintained where anyone in USAID, our host
       governments, our partners, and the general public may now find and read and
       understand these documents and their requirements for environmental soundness in the
       projects they cover. Attached to this memorandum are screenshots of the opening
       pages http://www.usaid.gov/our_work/environment/compliance/database.html
    •	 In support of audit recommendation (1), we recently included in Automated Directive
       System Chapter 204 – Environmental Compliance, a section 204.5.2 on Optional
       Recommended Language for Use in Solicitations and Awards. A copy attached to this
       memo.
    •	 In support of audit recommendation (3), we also have in ADS 204.5.1 a model Mission
       Environmental Officer appointment memorandum for Mission Directors to use. A copy is
       attached to this memo.
    •	 In support of audit recommendation (1), we have incorporated a mandatory field in
       GLAAS to indicate the 22 CFR 216 decision is in place. A copy of a screen shot of this
       field is attached.
    •	 In support of audit recommendation (2), we have worked with STATE/F to incorporate
       and refine yearly an Environmental Compliance Report section within each Mission’s
       Operational Plan. A copy of the pages in this year’s (FY 2011) OP guidance to the field
       from STATE/F with this requirement is attached to this memorandum. A copy of the
       relevant instruction template pages is attached.

I would like to thank the Deputy Assistant Inspector General and all of her staff for their highly
professional work in this thoughtful and helpful audit.



                                                                                               12
                                                                                     Appendix II


Attachments:
    1. 	 Response from the Acting Assistant to the Administrator of the Office of Afghanistan and
         Pakistan Affairs (OAPA)
    2. 	 Response from the Senior Deputy Assistant Administrator of the Bureau for Africa
    3. 	 Response from the Deputy Assistant Administrator of the Bureau for Asia
    4. 	 Response from the Senior Deputy Assistant Administrator for the Bureau for Europe and
         Eurasia
    5. 	 Response from the Special Assistant to the Administrator for the Bureau for the Middle
         East
    6. 	 Response from the Deputy Assistant Administrator for Latin America and the Caribbean
    7. 	 USAID Searchable Public Environmental Database – Screenshots of opening pages
    8. 	 Optional Recommended Language for Use in Solicitations and Awards
    9. 	 Model Mission Environmental Officer appointment memorandum
    10. Mandatory field in GLAAS to indicate the 22 CFR 216 decision is in place – relevant
         page from GLAAS User’s Guide
    11. FY 2011 STATE/F Operational Plan Template – Environmental Compliance Report –
         relevant pages
    12. Transmittal memorandum and Draft Audit of Selected USAID Missions Efforts to Mitigate
         Environmental Impact in Their Project Portfolios – Audit Report No. 9-000-11-00X-P –
         May XX, 2011




                                                                                              13
                                                                                  Appendix III



AUDIT REPORTS ISSUED
The following reports were issued as part of this worldwide audit. The reports are
available on the USAID Office of Inspector General Web site:
http://www.usaid.gov/oig/public/aud_usaid.htm

Report No. 9-000-10-004-P, “Audit of USAID/Kosovo’s Efforts to Mitigate Environmental Impact
in Its Project Portfolio,” March 9, 2010.

Report No. 7-660-10-009-P, “Audit of USAID/Democratic Republic of Congo’s Efforts to Mitigate
Environmental Impact in Its Project Portfolio,” July 21, 2010.

Report No. 6-263-10-005-P, “Audit of USAID/Egypt’s Efforts to Mitigate Environmental Impact in
Its Project Portfolio,” August 19, 2010.

Report No. 4-615-10-008-P, “Audit of USAID/Kenya’s Efforts to Mitigate Environmental Impact
in Its Project Portfolio,” September 29, 2010.




                                                                                           14
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
